No. 20-1499
IN THE

Supreme Court of the United States
AMERICAN CIVIL LIBERTIES UNION,
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,893
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 27, 2021.

/s/ Jessica Ring Amunson
Jessica Ring Amunson

